No.

IN THE
SUPREME COURT OF THE UNITED STATES

supre

SEP 2,
OFTfyfr

David Boyle
(Your Name)

— PETITIONER

vs.
Timothy Shoop

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Sixth Circuit Court of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

David Boyle
(Your Name)
15802 St. Rt. 104
(Address)
Chillicothe Ohio, 45601

RECEIVED
SEP 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT. US.

(City, State, Zip Code)

(Phone Number)

RECEIVED
NOV - 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION(S) PRESENTED

How can Ohioans reset the statute of limitations pursuant to 28 USC 2244 (d)(1)(A)
when Ohio Rules of Appellate Procedure prohibit the only remedy raised by this
court in Jimenez v Quarterman 555 US 113?

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

*

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4- <f

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

9
INDEX TO APPENDICES

APPENDIX A

"VXj -*2 “t o

APPENDIX B

-■i-

APPENDIX D
APPENDIX E
APPENDIX F

pQv
6mC5

Av-A.

UtmS
APPENDIX C

I& -

“'so pQtUX

X)

^ A2 C Vi

OpCsi>
s
3~Qo>t

TABLE OF AUTHORITIES CITED
CASES
Jimenez v Quarterman 555 US 113
Gonzalez v Thaler 565 US 134 (1/13/09)
State v Withers 14ap-726
State v Montgomery 18ap-585

PAGE NUMBER
, L>

40?
L?

STATUTES AND RULES
28 USC 2244 (d)(1)(A)

Appellate Rule 4(A)
Appellate Rule 5(A)

OTHER

$•

S

£

LIST OF PARTIES

[ X| All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
State v Boyle 2013-cr-42 - Greene County Court of Common pleas - 8-2013
State v Boyle 2014-Chio-1271 - Second District Court of Appeals - 3-2014
State v Boyle 20l3-cr-42 - Greene County Court of Common Pleas - 1-2018
State v Boyle 2018-0hio-3284 - Second District Court of Appeals - 8-2018
State v Boyle 154 Ohio St. 3d 1423 - Ohio Supreme Court - 11-2018
Boyle v Shoop - 2020 US Dist. Lexis 5915 - US District Court - 1-2020
Boyle v Shoop - 2020 US App Lexis 20384 - Sixth Circuit Court of Appeals - 6-2020

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[xJ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[X] reported at 2070 us App T.exts 20384
’> or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

n/a

The opinion of the United States district court appears at Appendix n/A
the petition and is
; or,
[ reported at 2Q.2jQ--.U-S Dist. Lexis 5915
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ^ For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix N/A to the petition and is
Be] reported at 154 Ohio st. 3d 1423
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the second district court of appeals
court
appears at Appendix _N/ A to the petition and is
; or,
IX] reported at 2018-ohio-3284 & 2014-ohio-1271
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION
Cx] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was June.2020
A
oA
Cx] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[

For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix

November 72018

[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

V

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
/ ‘

i(Ti

am.^j

//

<eck>l ('
a. (j\ (y

V/t

5

fo

No /"

do?

■f&

t< (h

be

No uiN “ / ^

i

1
{hcA

rp f e v|

Urdff <>■/'&

a

?

re> (o I

^

\

tJ>€

c- A ^

A °?<
;/j

STATEMENT OF THE CASE
In April of 2013, Petitioner was indicted for 16 counts of
rape pursuant to ORC 2907.02. Each count had no victim, no type
of sexual conduct, and were allegedly committed within the exact
same timeframe, see case number 2013-cr-0042. Counts 1 and 16
were separate and distinct counts? counts 2 to 15 read verbatim
to one another.
On august 8, 2013 petitioner plead guilty to coutns 2 to 7,
counts 2,3,4,and 5 were given a 10 year sentence per counts and
run consecutively to each other with-the remaining counts run
concurrent for an aggregate sentence of 40 years.
Petitioner appealed his conviction with court-appointed counsel.
Counsel filed an Anders brief pursuant to Ander v California
366 US 738, see State v Boyle 2014-ohio-1271. The appellate
court allowed petitioner to raise any issue that might have merit,
petitioner did so, he raised the issue of defective indictment
due to lack of victim, conduct, and timeframe, the appellate
court affirmed conviction on March 28, 2014. No appeal followed.
On January of 2018, petitioner filed a collateral attack on
case number 2013-cr-0042 m the form of a ‘'Motion to dismiss
indictment" in the Greene county trial court asserting multiplicity
and duplicity, the trial court one lined its denial and petitioner
appealed the trial courts decision.
The appellate court reopendd petitioners direct appeal and
all parties briefed, the court of appeals denied the appeal on
august 17, 2018, see State v Boyle 2018-ohio-3284.
Petitioner appealed to the Ohio Supreme Court, asserting
the same issues, and was denied jurisdiction on November 7, 2018
see State v Boyle 154 Ohio St. 3d 1423.
Petitioner filed his habeas corpus in the united states
district court of ohio on October 1, 2019, alleging multiplicity
in his indictment. Magistrate Michael R. Merz and Judge Rose
were assigned the case.
Magistrate Merz filed a report and recommendation requesting
dismissal due to the one-year statute of limitations pursuant
to 28 USC 2244 (d)(1)(A).
In his reportf Merz concluded that the only way to restart the
2244 (d)(1)(A) limitations was a remand back to the trial court
and resentence, and than start the appellate procedure anew,
pursuant to Gonzalez v Thaler 565 US 134 (1/10/12).
Within the Gonzalez decision, this court refers to a prev­
ious holding, Jimenez v Quqrterman 555 US 113 (1/13/09). In this
case, there were similiarities between the case at bar and j
Jimenez. Both petitioners appellate counsel filed and anders brief
Jimenez was not afforded his right to raise any raeritous issue
due to prison transfers, Petitioner was allowed. Both Petitioners
filed collateral attacks on their original convictions, Jimenez
filed a texas state habeas corpus, and Petitioner filed a "motion
to dismiss indictment." Jimenez was seven years after conviction

4

Petitioner was four years after initial appeal.
Jimenez was granted an out-of-time/delayed appeal which
re-opened direct review, Petitioner was granted an appeal of right,
which re-opened direct review.
Jimenez did not appeal to the highest state court, Petitioner
reached the Ohio Supreme Court.and was denied. Petitioner pointed
all of this out to Magistrate Merz.
Judge Rose sent the report back to Merz for further briefing
in supplemental report and recommendation. Here Merz was stuck
on the ‘'out-of-time'* appeal approach and requested dismissal
again.
Petitioner objected and asked the question, what did it matter
if Petitioner reopened direct review by an out-of-time/delayed
appeal or an appeal as of right when both methods in ohio allow
the appellate court the power to modify the original judgment
entry and restores pendency to the direct review.
Judge Rose sent the objections backktooMerz requiring further
briafthg. Petitioner bolstered the question in the second
supplemental report and recommendation. Jusge Rose denied Petitioner
on January 14, 2020 by denying and accepting "0©c #'"s, and refused
to reach the merits of the claim. See 2020 US Dist. Lexis 5915.
Petitioner appealed to the Sixth Circuit court of appeals
asking the same question that Merz avoided because This Honorable
court stated in Jimenez:
"HN8 When a state court has in fact re-opened direct review
the conviction is rendered non-final for purposes of 2244 (J
(d)(1)(A) during the pendency of the reopened appeal. "
The Sixth Circuit Court held onto the "Narrow" ruling in
Jimenez claiming the appeal had to be re-opened by delayed appeal.
See Boyle v Shoop 2020 US App. Lexis 2038.4.
Petitioner appeal to this Honorable Court requesting a re
remedy that Ohioans can use to restart the statute of limitations.
IhnOhio, Appellate Rule 4(A) governs a 30 day timeframe
in order to be guaranteed an "appeal of right". Appellate Rule
5(A) governs the format for a "delayed appeal"
"Appellate Rule 4*. >*0 appeal as of right - when taken
(A) time for appeal
(1) subject to provisions of App. R. 4(A)(3), a party who
wished to appeal from an order that is final upon its entry
shall file the notice of appeal required by App.R. 3
withing thirty days of that entry."
"Appellate Rule 5 - appeals by leave of court in criminal cases
(A) Motion by defendant for delayed appeal
(l) After the expiration of the thirty day period provided
by App.R. 4(A) for the filing of ahaptice of appeal as of
C5»ght> an appeal may be. taken by a defendant with leave of
court to which the appeal is taken in the following class
of cases:
(a) criminal proceedings,

•r

Petitioner was within the 30 day timeframe and was guaranteed
an appeal of right, pursuant to Merz, this did not "restore
the pendency of direct review" pursuant to Jimenez.
Pursuant to a non-related case, Elkins v Warden
2:20-cv-2934, Elkins went and directly filed for a "delayed appeal"
in the court of appeals and was denied due tor
"A delayed appeal isdohly availible where a defendant has
not pursued a timely appeal as of right."
State v Withers 14AP-726 (10/21/14)
Because Appellant 'had previously appealed the trial courts **
judgment entry of his conviction and sentence *** the procedure
in App.5(A) is not availible to appellant."
State v Montgomery 18Ap_585 (2/14/19)
In Elkins* the "delayed appea;", even improper, pursuant
to Judge Grahamndid not restore the pendency of direct review."
So What.does?
The only potential remedy that complies with Ohio Rules
of Appellate Procedure as well as Jimenez, supra, is to file
a collateral attack in the trial court, and when denied, wait
until the 31st day and file a delayed appeal.
When an appeal is delayed in Ohio, the court inherits "judicial
discretion.", therefore a petitioner would have to establish why
ko was untimely. The Only reason Petitioner could use is:
"The united state supreme court does nopt allow its statute
of limitations to be re-set unless an appellant complies
completely with Jimenez v Quatterraan 555 US 113, therefore
appellant is commanded to be late, in order to be on time."
If this Court agrees that this is the only remedy, than it
shall be, but what does it matter if the appeal is "or right"
or "delayed" when both render the same outcome by "restoring
the pendency to the direct review?

/

REASONS FOR GRANTING THE PETITION

By granting this petition, it will create a justiciable way
for Ghioand to receive appellate review from all federal level
courts, without granting this petition, there will be absolutely
no way for an ohioan to reach the federal level if he has^not
exhausted his state remedy.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

v

06

